                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 800.233.5874
                                                                                           Online Contact Form
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          December 3, 2013

Subject:       Final Report on the Audit of Peace Corps/Macedonia
               (IG-14-02-A)

Transmitted for your information is our final report on the audit of Peace Corps/Macedonia.

Management concurred with all four recommendations. All four recommendations will remain
open pending confirmation from the chief compliance officer that the documentation identified
in management’s response has been received. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix D, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Audit Bradley Grubb at 202.692.2914 or to Lead Auditor Hal Nanavati at 202.692.2929.
Please accept our thanks for your cooperation and assistance in our review.


cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Carlos Torres, Acting Associate Director, Global Operations
        Joseph Hepp, Chief Financial Officer
        Paul Shea, Deputy Chief Financial Officer
        Kathy Rulon, Acting Director, EMA
        Samuel Taylor, Budget Officer
        Susanna Karap-Szilagyi, Director, Global Accounts Payable
        Brenda Goodman, Deputy Associate Director, Office of Health Services
        Patricia Barkle, Deputy Chief Compliance Officer
        Hill Denham, Chief of Operations, EMA
        Carol Melo, Chief Administrative Officer, EMA
        Kathleen Corey, Country Director, Macedonia
James Zalansky, Director of Management and Operations, Macedonia
Macedonia Country Desk
Peace Corps
Office of Inspector General




   Peace Corps/Macedonia Volunteer Lori Weaver at
       the elementary school where she teaches




                Flag of Macedonia




     Final Audit Report:
   Peace Corps/Macedonia
                (IG-14-02-A)

                                                    December 2013
                                    EXECUTIVE SUMMARY
BACKGROUND
The Office of Inspector General (OIG) conducted an audit of Peace Corps/Macedonia (hereafter
referred to as “the post”) from April 15-26, 2013.
Staff:
  • U.S. direct hires: 3
  • Foreign service nationals: 2
  • Full-time personal services
    contractors (PSCs): 16
  • Part-time PSC: 1
Spending (approx.):
 • Fiscal year (FY) 2012 post spending - $1.7
   million
 • Average regional overhead - $418,000                         Map of Macedonia

WHAT WE FOUND

The post’s financial and administrative operations were effective and complied with agency
policies and applicable federal laws and regulations. We noted few areas in need of
improvement: post allowed the medical assistant to maintain a recurring interim advances, post
did not separate duties for management of grant projects, and post did not comply with the
agency’s policy for disposal of expired medical supplies.

RECOMMENDATIONS IN BRIEF

Our report contains four recommendations directed to the post to improve the monitoring of cash
advances, ensure proper separation of duties and timely issuance of bills of collection (BOCs), and
compliance with agency policies when disposing of expired medical supplies. Management
concurred with all four recommendations. All four recommendations will remain open pending
documentation described in Appendix C.




Final Audit Report: Peace Corps/Macedonia                                                        i
                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................................................................ i

BACKGROUND .........................................................................................................................1

AUDIT RESULTS ......................................................................................................................1
          IMPREST FUND INTERIM ADVANCES ............................................................................................................ 1

          MANAGEMENT OF GRANT PROJECTS ........................................................................................................... 2

          MEDICAL SUPPLIES ...................................................................................................................................... 4


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE ...............................5

LIST OF RECOMMENDATIONS ...........................................................................................6

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY ........................................7

APPENDIX B: LIST OF ACRONYMS ....................................................................................8

APPENDIX C: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT .................9

APPENDIX D: OIG COMMENTS .........................................................................................13

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .........................................14
                                                BACKGROUND
OIG conducted the audit of the post April 15-26, 2013. We previously performed an audit of the
post in 2002 and issued our report IG-02-20-A.

The first group of Volunteers arrived in 1996 and since then approximately 500 Volunteers have
served in Macedonia. At the time of our audit, 73 Volunteers were working in the education, and
community and municipal development project sectors. The post’s FY 2012 spending was
approximately $1.7 million. The Europe, Mediterranean, and Asia (EMA) region at headquarters
incurs an additional $418,000 per overseas post. 1

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.


                                               AUDIT RESULTS
The post’s financial and administrative operations were effective and complied with agency
policies and applicable federal laws and regulations. Overall, the post was managed well, staff
were highly qualified, and controls were in placed an operating effectively. Staff were
knowledgeable of Peace Corps’ policies and had developed procedures to ensure compliance.
We noted few areas in need of improvement: post allowed the medical assistant to maintain a
recurring interim advances, post did not separate duties for management of grant projects, and
post did not comply with the agency’s policy for disposal of expired medical supplies.

IMPREST FUND INTERIM ADVANCES

The post did not comply with agency policy on interim advances.

The Overseas Financial Management Handbook (OFMH) section 13.18 states that:

    Peace Corps Trainees, Volunteers, or staff may receive an interim advance to make a cash purchase when it is
    more economical or expeditious than making the payment by U. S. Government check or EFT.

    This interim cash advance must be supported by a copy of the authorized purchase document, and liquidated
    (accounted for) within three (3) working days. The recipient of the funds is personally accountable for the funds
    until they are accounted for (with receipts or funds are returned).

An interim advance is used to make authorized purchases and is not a petty cash fund held by
employees without cashier designations. When employees receive permanent advances they are
1
  The agency was unable to provide the total cost per post as certain costs are centrally budgeted and managed by
headquarters offices including the salaries and benefits of U.S. direct hires. The Peace Corps Office of Budget and
Analysis provided the total cost of $8.3 million incurred by the EMA region in direct support of its 20 overseas posts
in FY 2011, which is an average of $418,000 per post.



Final Audit Report: Peace Corps/Macedonia                                                                               1
acting as sub-cashiers rather than occasional money holders, and are therefore required to
comply with the Peace Corps Manual section (MS) 760. This MS provides guidelines for
establishing the sub-cashier function and details the responsibilities and liabilities of employees
acting as sub-cashiers.

During the review of imprest fund reconciliation, we noted that the medical assistant received
interim advances of approximately the same amount every three days over a period of several
months. On several occasions, the medical assistant returned the entire interim advance without
making any purchases. As required by the OFMH, the medical assistant brought cash to the
cashier to settle the open interim advance every three days (approximately 80 times per year).
The cashier then canceled the open interim advance and created a new interim advance for the
same amount. The medical assistant created a new purchase document to support the new interim
advance.

As these advances remained open indefinitely, they appeared to be permanent advances and did
not comply with the interim advance guidelines.

        We recommend:

        1. That the director of management and operations monitor employees receiving cash
           advances to ensure advances are only for authorized purchases.


MANAGEMENT OF GRANT PROJECTS

The post did not separate duties for the management of grant projects.

According to the Government Accountability Office (GAO)’s Internal Control Management and
Evaluation Tool:

    “Key duties and responsibilities are divided or segregated among different people to reduce the risk of
    error, waste, or fraud.

        •    No one individual is allowed to control all key aspects of a transaction or event.
        •    Responsibilities and duties involving transactions and events are separated among different
             employees with respect to authorization, approval, processing and recording, making
             payments or receiving funds, review and auditing, and the custodial functions and handling of
             related assets.
        •    Duties are assigned systematically to a number of individuals to ensure that effective checks
             and balances exist.
        •    Where feasible, no one individual is allowed to work alone with cash, negotiable securities, or
             other highly venerable assets.

Since the departure of the grant coordinator, the cashier has managed most of the Volunteer grant
projects. The cashier conducted the following for small project assistance (SPA) grants:

    •   coordinated the selection of SPA grants



Final Audit Report: Peace Corps/Macedonia                                                                      2
    •   created the obligation and liquidation (with the director of management and operation’s
        (DMO’s) approval) to disburse the cash to the Volunteer’s bank account for all approved
        SPA projects
    •   tracked the status of the SPA projects
    •   reviewed the Volunteer’s completion report and supporting documents
    •   sent the completion report and support for the balance due, if any, to the billing officer to
        issue a BOC
    •   collected any unused funds from Volunteers for BOCs

Although we did not identify any improper actions, this concentration of duties in one staff
member was not in keeping with GAO principles of internal control and exposed the agency to
unnecessary risks.

        We recommend:

        2. That the director of management and operations follow agency policy and separate the
           responsibilities of verifying final project costs, creating bills of collection, and collecting
           reimbursements among different staff members to reduce the risk of error or fraud.


Administrative staff did not properly handle cash received from a Volunteer.

According to MS 777, “Billing and Collection Procedures, Debts and Claims,” “…If another
office or employee [besides the cashier] receives a remittance it should be immediately delivered
to the collection officer [and] the collection officer will issue a separate receipt for each
collection received.” OFMH section 7.2, “The Billing Process,” states, “Billing Officers prepare
Bills of Collection (BOCs) when a reimbursement or other payment is due to Peace Corps.”

In 2009, a Volunteer terminated his/her service prior to completing his/her SPA project. The
Volunteer neither prepared the SPA project completion report nor refunded the balance due to
the cashier before leaving the country. Instead, the Volunteer sent the amount due through
another Volunteer to settle the account with the post. The other Volunteer handed the funds to a
member of the financial staff. The billing officer collected and retained custody of the funds for
over five weeks prior to issuing BOCs and issuing a receipt to the Volunteer.

Per the billing officer, the departing Volunteer had the balance of the funds due in a local bank
account. It took the post approximately five weeks to complete the paperwork to withdraw the
funds. The post did not want to create multiple BOCs so the DMO instructed the billing officer
to retain custody of the cash without creating a BOC or receipt, in violation of Peace Corps
policy as noted above.

        We recommend:

        3. The director of management and operations remind the financial staff to create bills of
           collection as soon as it is determined that amounts are due from the Volunteers and
           ensure that all cash is provided to the cashier and that a receipt is created.


Final Audit Report: Peace Corps/Macedonia                                                             3
MEDICAL SUPPLIES

The post did not comply with the agency’s policy for disposal of expired medical supplies.

MS 734 requires that medical supplies with expired shelf lives be destroyed in accordance with
local waste disposal, and air and water pollution control standards. The local waste disposal
requirements in Macedonia require pharmaceuticals to be packaged, labeled, and burned in an
approved incinerator. Furthermore, Peace Corps Technical Guidance 240, “Disposal of Outdated
Medical Supplies,” prohibits the disposal of drugs into any water supply. It states, “Drugs may
not be disposed down a sink, flushed down a toilet, discarded into a sewage system, discarded
into any body of water, or otherwise discarded via a water system.”

The country director and Peace Corps medical officer inappropriately flushed expired medical
supplies, including controlled substances, which is in direct conflict with Peace Corps guidance
and violates local waste disposal requirements.

        We recommend:

        4. The country director use the proper method for the disposal of expired medical supplies,
           including controlled substances, in compliance with the agency policy and local
           regulations.




Final Audit Report: Peace Corps/Macedonia                                                          4
                            QUESTIONED COSTS AND
                         FUNDS TO BE PUT TO BETTER USE
We did not identify funds put to better use or questioned costs during the course of the audit.




Final Audit Report: Peace Corps/Macedonia                                                         5
                              LIST OF RECOMMENDATIONS
    We recommend:

    1. That the director of management and operations monitor employees receiving cash advances
       to ensure advances are only for authorized purchases.

    2. That the director of management and operations follow agency policy and separate the
       responsibilities of verifying final project costs, creating bills of collection, and collecting
       reimbursements among different staff members to reduce the risk of error or fraud.

    3. The director of management and operations remind the financial staff to create bills of
       collection as soon as it is determined that amounts are due from the Volunteers and ensure
       that all cash is provided to the cashier and that a receipt is created.

    4. The country director use the proper method for the disposal of expired medical supplies,
       including controlled substances, in compliance with the agency policy and local regulations.




Final Audit Report: Peace Corps/Macedonia                                                                6
      APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit of PC/Macedonia covered fiscal years 2010, 2011, 2012, and 2013 up to March 31,
2013. While at the post, we interviewed key staff including the CD, the DMO, staff responsible
for administrative support, and the lead Peace Corps medical officer. We communicated issues
and areas of improvement to senior staff at post and Peace Corps management at headquarters
and included significant issues noted during our audit in this report. We primarily reviewed the
following processes and associated controls:

        •    BOCs
        •    Contracts and leases
        •    Cash and Non-cash payments
        •    Imprest fund
        •    Credit card transactions
        •    Information technology general controls
        •    Medical supplies
        •    Personal property and vehicles
        •    Personal services contracts
        •    Volunteer payments

We relied on computer-processed data from the post’s accounting system and verified such data with
hard-copy documents, as required. While we did not test the system’s controls, we believe the
information generated by the system and used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, Medical Technical Guidelines, and other
Peace Corps policies and initiatives.




Final Audit Report: Peace Corps/Macedonia                                                          7
                          APPENDIX B: LIST OF ACRONYMS

   DMO                            Director of Management and Operations
   EMA                            Europe, Mediterranean, and Asia
   FY                             Fiscal Year
   GAO                            Government Accountability Office
   MS                             Peace Corps Manual Section
   OFMH                           Overseas Financial Management Handbook
   OIG                            Office of Inspector General
   PSC                            Personal Services Contractors
   SPA                            Small Project Assistance




Final Audit Report: Peace Corps/Macedonia                                  8
   APPENDIX C: AGENCY’S RESPONSE TO THE PRELIMINARY
                        REPORT




Final Audit Report: Peace Corps/Macedonia             9
                            APPENDIX D: OIG COMMENTS
Management concurred with all four recommendations. All four recommendations will remain
open pending confirmation from the chief compliance officer that the documentation identified
in management’s response has been received. In its response, management described actions it is
taking, or intends to take, to address the issues that prompted each of our recommendations.
Certifying compliance and verifying effectiveness are management’s responsibilities. However,
when we feel it is warranted, we may conduct a follow-up review to confirm that action has been
taken and to evaluate the impact.




Final Audit Report: Peace Corps/Macedonia                                                    13
      APPENDIX E: AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                       Lead Auditors Hal Nanavati and Rebecca Underhill performed
                                       the audit of Peace Corps/Macedonia.




                                       Bradley Grubb
                                       Assistant Inspector General for Audit

OIG CONTACT                            If you wish to comment on the quality or usefulness of this
                                       report to help us strengthen our product, please contact
                                       Assistant Inspector General for Audit Bradley Grubb, at
                                       bgrubb@peacecorps.gov or 202.692.2914.




Final Audit Report: Peace Corps/Macedonia                                                            14
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                         Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
